REVIEW OF THE AWARD PROCESS FOR
THE BUREAU OF JUSTICE ASSISTANCE
RECOVERY ACT GRANT PROGRAM FOR
   CORRECTIONAL FACILITIES ON
    TRIBAL LANDS, CATEGORY V

        U.S. Department of Justice
      Office of the Inspector General
               Audit Division

               Report 11-18
              February 2011
Introduction

      The American Recovery and Reinvestment Act of 2009 (Recovery Act)
created the Recovery Act Correctional Facilities on Tribal Lands Discretionary
Grant Program and appropriated $225 million to the Bureau of Justice
Assistance (BJA) to fund the program. 1 Through this program, the BJA can
provide funding to Indian Tribes in the following five categories:

   •   Category I: Construction of detention facilities for adult and juvenile
       offenders

   •   Category II: Construction of single-tribe or regional multipurpose
       justice centers

   •   Category III: Renovation of existing detention facilities

   •   Category IV: Construction of alternative sentencing facilities

   •   Category V: Training and technical assistance for Correctional
       Facilities on Tribal Lands Program

      According to the program solicitation, the goal of awards under
categories I through IV is to assist tribes in constructing and renovating
correctional facilities that are appropriate for the intended population,
supportive of cultural and traditional values, safe and secure when
completed, and in compliance with relevant Bureau of Indian Affairs (BIA)
correctional standards.

      Category V awards for the provision of training and technical
assistance are focused primarily on those tribes that receive funding in
categories I through IV of the solicitation. However, category V assistance
can also be provided to tribes not receiving funding in categories I through
IV. As of November 2010, the Office of Justice Programs (OJP) obligated
approximately $5 million for category V awards. The BJA awarded over
$4.7 million under the Recovery Act Correctional Facilities on Tribal Lands
Program to one category V recipient, Justice Solutions Group (JSG). 2 The
BJA awarded the remaining $263,000 as a supplement to an existing

       1
         Congress appropriated $225 million to the BJA under the Recovery Act for grants
under section 20109 of subtitle A of Title II of the Violent Crime Control and Law
Enforcement Act of 1994. Pub. L. No. 103-322 (1994).
       2
        The remaining $220 million was awarded to category I through IV recipients of the
Recovery Act Correctional Facilities on Tribal Lands Program.


                                          -1-
contract with the Alpha Corporation to provide National Environmental Policy
Act (NEPA) compliance assistance to tribal grantees.

       This report focuses only on the awards made under category V of the
Recovery Act Correctional Facilities on Tribal Lands Program. 3 The awards
made under categories I through IV of the Recovery Act Correctional
Facilities on Tribal Lands Program were the subject of a previous OIG
report. 4

       The objectives of this review were to assess:

   •   the application evaluation process used by the BJA in its funding
       decision for awards under the Recovery Act Correctional Facilities
       on Tribal Lands Program, and

   •   if grants awarded under category V of the Recovery Act Correctional
       Facilities on Tribal Lands Program were made in an open and
       competitive manner.

Results in Brief

      The BJA received a total of three applications under category V of the
Recovery Act Correctional Facilities on Tribal Lands Program. First, the
applications were internally reviewed by the BJA to determine if they met
the basic minimum requirements of the solicitation. Based on this review,
one application was rejected because the applicant had applied under the
wrong solicitation. 5 The two remaining applications were then forwarded to
the peer review phase of the selection process.

      The BJA formed a peer review panel comprised of one external and
two internal reviewers to evaluate the two remaining category V
applications. BJA officials explained that, given that there were only two

       3
          This report is one of a series of reports that we have issued during our ongoing
review of the Department of Justice’s management and oversight of Recovery Act funds
allocated to the BJA’s Recovery Act Correctional Facilities on Tribal Lands Program. Our
future work will include a review of the use of BJA’s Recovery Act Correctional Facilities on
Tribal Lands Program funds by a selected sample of recipients and sub-recipients.
       4
         U.S. Department of Justice Office of the Inspector General, Review of the Award
Process for the Bureau of Justice Assistance American Recovery and Reinvestment Act
Correctional Facilities on Tribal Lands Grant Program Categories I Through IV, Report 10-26
(June 2010).
       5
         The internally rejected applicant had incorrectly submitted a category II application
proposing the construction of a multipurpose justice center under category V.


                                             -2-
applications to review under category V, it was more cost effective to review
them internally. Additionally, BJA officials stated that it is the BJA’s policy to
utilize senior policy analysts within the BJA to review national training and
technical assistance award applications due to the importance of these
awards to the BJA’s mission, and that these internal reviewers had better
insight into the types of training and technical assistance that would be
needed under these programs and could better assess applicants’
capabilities than an external reviewer.

       Scores for each reviewed application were compiled into a scoring
report by the peer review logistical support provider. 6 We independently
calculated the final peer review scores for the two applicants based upon the
raw peer reviewer scores to determine the accuracy of the overall scores
reported to the BJA by the logistical support provider and determined that
one score had been incorrectly reported to the BJA. 7 We brought this
discrepancy to the BJA’s attention. We found that the logistical support
provider had mis-keyed the score when manually entering it into the final
report sent to BJA. The logistical support provider stated that it will ensure
that this type of error does not occur again by conducting a quality control
review of manually entered data. In order to prevent reporting errors from
affecting future peer reviews, OJP should ensure that the logistical support
contractor satisfactorily implements this quality control review of manually
entered data.

      However, neither the incorrect nor the correct final assessment score
changed the overall ranking of category V applications. Therefore, this error
did not appear to have a significant effect on the funding decision.

      Funds totaling $4,737,942 were provided through category V Recovery
Act funding to Justice Solutions Group (JSG). We found that JSG had not
submitted all required materials with its application at the time the initial


       6
          The BJA contracts with a peer review logistical support provider to assist with the
peer review process for applications received under the Recovery Act Correctional Facilities
on Tribal Lands Program. Lockheed Martin holds the current contract to provide logistical
support during the peer review process. The logistical support provider maintains a pool of
potential peer reviewers, distributes access to applications in OJP’s Grants Management
System (GMS) to selected peer reviewers, facilitates consensus calls between subject
matter experts and peer reviewers, and calculates the scores resulting from the review
panels.
       7
         We did not evaluate, nor do we provide an opinion, on the validity or accuracy of
the each individual peer reviewer’s assessment of the applications. The objective of our
analysis was to determine if the overall scores assigned to applications correctly
represented the average of the peer reviewers’ scores for each application.


                                            -3-
award was made. 8 Although the grant was awarded to JSG with an
incomplete application, the BJA placed a hold on the award until all the
required materials were submitted. The funds awarded to JSG included a
$250,607 supplement that was awarded non-competitively. 9

       Although the BJA represented the awarding process of the original
award to JSG to be a competitive process, we identified a prior relationship
between JSG and an internal peer reviewer (Peer Reviewer A). 10 Peer
Reviewer A served as a point of contact for Recovery Act Correctional
Facilities on Tribal Lands Program applicants during the application process.
We obtained the Conflict of Interest Form submitted by Peer Reviewer A
certifying that the reviewer had no conflicts of interest at the time
applications for the Recovery Act Correctional Facilities on Tribal Lands
Program were reviewed. However, during a recent OIG grant audit of JSG,
we obtained documentation showing that Peer Reviewer A, while employed
at DOJ, had significant involvement with JSG prior to serving on the review
panel for the Recovery Act Correctional Facilities on Tribal Lands Program.
Peer Reviewer A had participated in JSG’s Advisory Committee. The purpose
of this committee is to collaboratively support the development of curricula
and publications for use by JSG, the provision of technical assistance by JSG,
and the dissemination of information by JSG to assist tribal planning teams.
The use of a peer reviewer who is not free from a conflict of interest with an
applicant undermines the purpose of the peer review process as a means for
an objective and independent review.




       8
          JSG had failed to submit certifications related to Recovery Act reporting and
infrastructure investments. These documents were required by the solicitation but
immaterial to the funding decision.
       9
         The BJA also awarded $263,000 as a supplement to an existing contract with the
Alpha Corporation to provide National Environmental Policy Act (NEPA) compliance
assistance to tribal grantees. This supplement was also awarded non-competitively.
       10
            This peer reviewer is referred to as Peer Reviewer A throughout this report.


                                             -4-
        Additionally, we identified several concerns with the BJA’s award
process being open and competitive. We found that JSG and its affiliated
companies have been the exclusive recipients of grants and cooperative
agreements to provide training and technical assistance for correctional
facilities on tribal lands since 2001. In 2001, the Federal Bureau of Prison’s
(BOP) National Institute of Corrections (NIC) awarded Justice Planners
International, LLC a non-competitive cooperative agreement to provide
training and technical assistance for the construction of correctional facilities
on tribal lands. According to the funding memo provided by the BOP:

       Due to a short time frame, dictated by OJP’s Corrections
       Program Office (CPO) direction to begin providing technical
       assistance as soon as possible, two firms were contacted who
       had a reputation for strong architectural planning and design
       work in both juvenile and adult correctional facilities and also
       had experience in providing NIC training and technical assistance
       to Indian Tribes. The firms Mark Goldman and Associates, Inc.
       and International Partnerships for Youth LLC, formed a
       partnership entitled Justice Planners International LLC. 11
       Following two meetings with the CPO and the NIC, the firm
       developed an application to provide technical assistance to
       Indian Tribes that contained all of the prerequisites requested of
       them by both the CPO and the NIC.

        From 2001 through 2005, the NIC, through an interagency agreement
with OJP, used a non-competitive process to award funds to Justice Planners
International to provide training and technical assistance for correctional
facilities on tribal lands. Since 2006, funding has been provided directly to
JSG and its affiliated companies by the BJA through both competitive and
non-competitive awards. Excluding Recovery Act funding, JSG and its
affiliated companies have received approximately $7.3 million since 2001 to
provide training and technical assistance for correctional facilities on tribal
lands. Approximately $5.3 million of this funding has been non-
competitively awarded. Appendix III provides a detailed listing of funding
provided to JSG and its affiliated companies.

       The Recovery Act Correctional Facilities on Tribal Lands Program
solicitation states that priority consideration would be given to category V



       11
          International Partnership for Youth, LLC is currently using the trade name “Justice
Solutions Group” to conduct business as a training and technical assistance provider for
correctional facilities on tribal lands.


                                            -5-
applicants that demonstrate specific competencies. 12 It appears that BJA’s
priority consideration, as indicated in the Recovery Act Correctional Facilities
on Tribal Lands solicitation, was written specifically for JSG and it would be
very difficult, if not impossible, for any other applicant of this program to
meet the criteria without the support the BJA provided JSG. For example,
the BJA states that priority consideration would be given to applicants that
demonstrate a history of working effectively with tribal officials, tribal project
managers, the BIA, the National Institute of Corrections, and other federal
agencies. As previously described, JSG began work through an affiliated
company with tribal corrections through a 2001 cooperative agreement with
the Federal Bureau of Prison’s National Institute of Corrections and OJP’s
Corrections Program Office, and has been the exclusive training and
technical assistance provider for correctional facilities on tribal lands since
2001. Additionally, JSG was funded by the BJA through a 2008 grant to
develop an Advisory Committee comprised of leadership from tribal
government, tribal correctional agencies, and representatives from JSG, BJA,
BIA, the National Institute of Corrections, state government, and private
foundations.

      As a result of our review, we are concerned that the BJA may not have
complied with the requirements in the Recovery Act to award grants in a fair
manner. We believe that the BJA should consider strengthening internal
controls to reduce the risk of the appearance of conflicts of interest or
favoritism towards a particular grantee. The BJA should also consider
possible remedies or disciplinary actions that may be warranted as a result
of the appearance of a conflict of interest identified in our review.

      More detailed results of our review of the BJA’s award processes for
category V of the Recovery Act Correctional Facilities on Tribal Lands
Program are discussed in the sections below.

Overview of Award Process

      The BJA received a total of three applications under category V of the
Recovery Act Correctional Facilities on Tribal Lands Program. According to
BJA’s process, prior to funding each application goes through a review
process to ensure the most qualified applicants are awarded grants. First,
the BJA performs an internal review to determine if the applications meet


       12
          These competencies relate to substantial experience working with tribes and the
planning of tribal correctional facilities, a history of working with the National Institute of
Corrections and other federal agencies involved in tribal programs, access to criminal justice
professionals, and a 90-day operational readiness.


                                            -6-
the Basic Minimum Requirements of the solicitation. 13 Successful
applications are then sent to peer reviewers for evaluation. Once scored,
applications are again reviewed by BJA officials and funding
recommendations are made and sent to OJP’s Assistant Attorney General for
approval. Once the Assistant Attorney General approves funding
recommendations, awards are made.

BJA’s Internal Review of Applications

       The three applications the BJA received were internally reviewed to
determine if they met the Basic Minimum Requirements of the solicitation.
BJA officials informed us that as a result of the internal review, one
application was rejected because the applicant had applied under the wrong
solicitation. 14 The remaining two category V applications were forwarded to
the peer review phase of the selection process.

       As a result of the competitive review process, the BJA made one award
totaling $4,487,335 to JSG. 15 We reviewed the application materials
submitted by JSG and found that JSG had not submitted all required
materials at the time awards were made, indicating that the BJA may not



       13
            Basic Minimum Requirements are defined for each program in the solicitation
developed by OJP in accordance with agency guidelines and regulations. Basic Minimum
Requirements for the Recovery Act Correctional Facilities on Tribal Lands Program
solicitation include: (1) a valid Data Universal Numbering System (DUNS) number and
current registration in the Central Contractor Registration database; (2) a signed tribal
resolution by the application deadline (May 4, 2009); (3) a completed Standard Form 424, a
core government-wide standard data set and form for grant applications; (4) project
abstract; (5) project narrative; (6) project budget and budget narrative; (7) project timeline
with expected completion dates, resumes of key personnel, and Memorandum of
Understanding (if applicable); (8) a certification as to the Recovery Act reporting
requirements; and (9) a general certification as to the requirements for receipt of funds for
infrastructure investments.
       14
          According to the solicitation, eligible category V applicants are for-profit
(commercial) organizations, non-profit organizations, faith-based and community
organizations, institutions of higher learning, or consortiums with demonstrated national
level experience in working with tribal representatives to plan, renovate, and construct
correctional facilities that serve local and regional needs. The internally rejected applicant
was a tribe that had incorrectly submitted an application for the construction of a
multipurpose justice center under category V.
       15
          As of November 2010, two supplemental, non-competitive awards were made
totaling $513,607. One award was given to JSG for $250,607, and one award was made to
Alpha Corporation for $263,000, bringing the total awarded under category V to
$5,000,942.


                                             -7-
have fully enforced solicitation requirements. 16 Consequently, the grant was
awarded to JSG with an incomplete application. 17 However, the BJA placed a
hold on the award until JSG had submitted the missing material.

Peer Review Process

       The BJA contracts with a peer review logistical support provider to
assist with the peer review process for applications received under the
Recovery Act Correctional Facilities on Tribal Lands Program. 18 The logistical
support provider maintains a pool of potential peer reviewers, distributes
access to applications in OJP’s Grants Management System (GMS) to
selected peer reviewers, facilitates consensus calls between subject matter
experts and peer reviewers, and calculates the scores resulting from the
review panels. The list of potential peer reviewers and their resumes were
made available to the BJA to select qualified candidates for the peer review
process.

       However, given that there were only two applications to review under
category V, the BJA decided that it was more cost effective to review them
internally. Additionally, BJA officials stated that it is the BJA’s policy to
utilize senior policy analysts within the BJA to review national training and
technical assistance award applications due to the importance of these
awards to the BJA’s mission. BJA officials added that these internal
reviewers had better insight into the types of training and technical
assistance that would be needed under these programs than external
reviewers and could better assess applicants’ capabilities. The BJA formed
one peer review panel to review category V applications, which was
comprised of one external and two internal peer reviewers who were
selected based on their experience with tribal matters, training, and
technical assistance.

       16
          We reported the issue of inconsistent enforcement of solicitation requirements for
the Edward Byrne Memorial Justice Assistance Grant Program in a prior report. In its
response, OJP stated that for future solicitations, the BJA plans to describe material as
“required” and send back applications for additional information when the "required"
information is not included. U.S. Department of Justice Office of the Inspector General,
Review of the Edward Byrne Memorial Justice Assistance Grant Program Recovery Act
Formula Awards Administered by the Department of Justice’s Office of Justice Programs
(December 2009).
       17
           JSG failed to submit certifications related to Recovery Act reporting and
infrastructure investments. These documents were required by the solicitation but were
immaterial to the funding decision.
       18
          Lockheed Martin holds the current contract to provide logistical support during the
peer review process.


                                           -8-
Peer Review Scoring Methodology

       The BJA defined the criteria and the weighting of each criterion used to
evaluate applications submitted under category V of the Recovery Act
Correctional Facilities on Tribal Lands Program in the program solicitation.
Each peer reviewer performed an initial assessment and rated each criterion,
as listed below in Table 1, on a scale of 0 (unacceptable) to 10 (excellent).
Each criterion was assigned a weight (percentage) by the BJA, also identified
in Table 1.

TABLE 1. CRITERIA AND WEIGHTED POINT VALUE FOR PEER
         REVIEW OF CATEGORY V APPLICATIONS

                       CRITERIA                         WEIGHTED POINT VALUE
Statement of the Problem/Program Narrative                     15%
Project/Program Design and Implementation                        20%
Capabilities/Competencies                                        35%
Budget                                                           15%
Impact/Outcomes and Evaluation/Plan for Collecting
                                                                 15%
 Data for Performance Measures/Sustainment
Source: OJP

       In addition to the evaluation criteria and weighted point value listed
above, the Recovery Act Correctional Facilities on Tribal Lands Program
solicitation states that priority consideration would be given to category V
applicants that demonstrate:

   •   Substantial experience working with tribes to plan, renovate, and
       construct facilities associated with the incarceration and rehabilitation
       of juvenile and adult offenders subject to tribal jurisdiction;

   •   Substantial experience in developing comprehensive strategic
       community justice plans that encompass community need, the design,
       use, capacity, and cost of adult and juvenile justice sanctions and
       services;

   •   An understanding of detention and correctional building options
       including prototypical or quasi-prototypical concepts/designs for tribal
       correctional facilities, multi-service centers, support offices, and
       regional facilities;




                                        -9-
   •   A history of working effectively with tribal officials, tribal project
       managers, the Bureau of Indian Affairs, the National Institute of
       Corrections, and other federal agencies;

   •   Cultural competency working with Native American representatives
       and communities;

   •   An ability to develop curricula and modify training and technical
       assistance delivery to meet specific needs of tribal communities;

   •   Access to an established cadre of criminal justice professionals with
       substantial experience in Indian Country who can execute tasks
       associated with this program; and

   •   An operational readiness within 90 days of the award.

Peer Review Scoring Process

        Using the evaluation criteria provided by the BJA, peer reviewers
completed an initial assessment of each application. After the initial
assessments, each peer reviewer’s individual criterion scores were input into
the Initial Assessment Form in GMS, which automatically weighted each
score. 19 A peer reviewer’s overall application score is on a scale of
0 (unacceptable) to 100 (excellent), and is the sum of each criterion’s
weighted score. The logistical support provider compiled a report of all the
initial comments and scores submitted by the peer reviewers. The peer
reviewers then participated in a conference call facilitated by the logistical
support provider to discuss their scores and comments. The solicitation
manager, a BJA staff member responsible for overseeing the award process
for a solicitation, also participated to provide clarification to reviewers, but
was not allowed to influence the outcome of the application review.

       Following the consensus call, peer reviewers were able to change their
scores or comments based on feedback they received from the group. While
reviewers may come to a consensus during this meeting, it is not required.
After the consensus call, peer reviewers then entered their final scores and
comments into the Final Assessments Form in GMS. The final scores were




       19
          GMS automatically weights each criterion score by multiplying each criterion score
by 10 and then by the weighting percentage assigned to each criterion under the Recovery
Act Correctional Facilities on Tribal Lands Program.


                                          - 10 -
then compiled by the logistical support provider. 20 The applications were
ranked by their overall final assessment score within each award category.
Appendix II details the overall final assessment score for each application.
We compared the original scores to the final score submitted by the peer
reviewers to identify any applications that had been significantly changed
following the consensus call, and we did not identify any such changes.

Peer Review Score Verification

      To determine the accuracy of the final scoring report provided to the
BJA by the logistical support provider and the calculations programmed in
GMS, which automatically average the raw peer reviewer scores, we
independently averaged each application’s peer review scores and compared
our results to what was provided to the BJA by the logistical support
provider. 21 We determined that one of the two final assessment scores had
been incorrectly reported. The National Justice Center’s final average score
following the peer review was reported to the BJA as 77.50 out of a possible
100.22 The final score calculated by the OIG using the methodology
described above was 81.17 out of a possible 100.

       At our request, the BJA followed up on the discrepancy with the
logistical support provider and found that it had mis-keyed the score when
manually entering it into the final report sent to the BJA. The logistical
support provider reported that the error was most likely due to the slow
response of the reviewers and that it will ensure that this does not occur
again by conducting a quality control review of manually entered data. The
logistical support provider concurred that the correct final assessment score
for the National Justice Center’s application was 81.17. However, neither
the incorrect nor the correct final assessment score changes the overall
ranking of category V applications. Even though in this case the reporting
error by the logistical support provider did not affect the overall ranking,
there is a potential for this type of error to affect future peer reviews.
Therefore, OJP should ensure that the logistical support contractor


       20
          Each application received an overall final assessment score on a scale of
0 (unacceptable) to 100 (excellent), which represents the average of all three final peer
reviewer scores.
       21
          We did not evaluate, nor do we provide an opinion on, the validity or accuracy of
each individual peer reviewer’s assessment of the applications. The objective of our
analysis was to determine if the overall scores assigned to applications correctly
represented the average of the peer reviewers’ scores for each application.
       22
            OJP grant application No. 2009-G6019-CA-ST.


                                           - 11 -
satisfactorily implements the quality control review of manually entered data
mentioned above.

BJA’s Award Decision

      After the peer review was completed, the grant manager and BJA
program office management collaborated to recommend applications for
funding. The BJA reviewed both applications sent to peer review and
developed a formal recommendation memorandum for approval by the
Assistant Attorney General for OJP. This memorandum recommended
funding the application submitted by JSG because it had the highest peer
review score. In addition, the memorandum recommended JSG for its
proven track record of providing training and technical assistance for the
BJA’s Correctional Facilities on Tribal Lands Program, an established
reputation among the tribal nations, effectively utilizing tribal members for
its work, and its keen awareness of the issues facing tribes and tribal
criminal justice systems, especially the corrections component. JSG was
ultimately awarded $4,487,335 under category V of the 2009 Recovery Act
Correctional Facilities on Tribal Lands Program. 23

       In its funding memorandum to the Assistant Attorney General for OJP,
the BJA recommended funding for only $224,486,393 of the $225,000,000
appropriated under categories I through V of the Recovery Act Correctional
Facilities on Tribal Lands Program. The remaining $513,607 was awarded as
two non-competitive supplemental awards. One supplemental award for
$250,607 was made to JSG to deliver additional training and technical
assistance to tribal grantees. BJA officials decided that a number of tribal
grantees will need greater assistance than originally anticipated, and
therefore recommended supplemental funding to JSG. The second
supplemental award for $263,000 was made to Alpha Corporation to provide
National Environmental Policy Act (NEPA) assistance to tribal grantees.
According to the funding recommendation, this supplemental award will
allow Alpha Corporation to hire a NEPA Coordinator to ensure that tribal
grantees are compliant with NEPA guidance and regulations in executing
Recovery Act-funded construction and renovation projects.

Internal Peer Reviewer’s Prior Relationship with JSG

      We reviewed the names of the peer reviewers serving on the panel for
category V applications and determined that one of the internal reviewers
also served as one of the three points of contact for Recovery Act
      23
          As of November 2010, one supplemental, non-competitive award was made to
JSG for $250,607, bringing the total awarded to JSG under category V to $4,737,942.


                                        - 12 -
Correctional Facilities on Tribal Lands Program applicants. 24 We followed up
with BJA officials on Peer Reviewer A’s involvement with the Correctional
Facilities on Tribal Lands Program and the training and technical assistance
provider, JSG. BJA officials originally stated that Peer Reviewer A had no
involvement with the Correctional Facilities on Tribal Lands Program or with
any of the category V applicants and that Peer Reviewer A’s duties involved
setting up training and technical assistance services under the BJA’s Tribal
Courts Program.

       According to the Conflict of Interest Form provided to peer reviewers
by OJP, reviewers must declare if they “have or recently had a collaborative
relationship with the proposal’s author(s) or project staff.” We obtained the
Conflict of Interest Form submitted by Peer Reviewer A, which indicated the
reviewer had no conflicts of interest at the time applications for the Recovery
Act Correctional Facilities on Tribal Lands Program were reviewed. However,
during a recent OIG grant audit of JSG, we obtained supporting
documentation showing Peer Reviewer A had significant involvement with
JSG prior to serving as a peer reviewer for category V applications under the
Recovery Act Correctional Facilities on Tribal Lands Program. We were
provided documentation that listed Peer Reviewer A as a participant in JSG’s
Advisory Committee prior to the peer review process of the Recovery Act
Correctional Facilities on Tribal Lands Program. This committee is comprised
of representatives from tribal governments, tribal correctional agencies, JSG,
the BJA, the Bureau of Indian Affairs, the National Institute of Corrections,
state governments, and private foundations. The purpose of this committee
is to collaboratively support the development of curricula and publications
for use by JSG, the provision of technical assistance by JSG, and the
dissemination of information by JSG to assist tribal planning teams.
According to BJA officials and materials provided by JSG, the committee
brings tribal justice agencies and organizations together to facilitate
collaboration in order to maximize the potential for successful completion of
tribal correctional facilities.

       In addition to serving on the Advisory Committee, we found that Peer
Reviewer A had attended two Planning Correctional Facilities on Tribal Lands
Training and Technical Assistance Project Meetings that were facilitated by
JSG and took place on November 5, 2008, and March 23, 2009.25 The
purpose of these meetings was to reach a general consensus on the
direction, approach, and curriculum to be used for the training and technical

      24
           This peer reviewer is referred to as Peer Reviewer A throughout this report.
      25
          The funding recommendation was sent to the Assistant Attorney General for
approval on July 21, 2009.


                                            - 13 -
assistance provided by JSG under the Correctional Facilities on Tribal Lands
Program. 26

       Therefore, it appears that Peer Reviewer A had a collaborative
relationship with JSG staff prior to the review of their application and did not
disclose this relationship during the peer review process. The use of peer
reviewers who are not free from conflicts of interest with applicants
undermines the purpose of the peer review process as an objective and
independent review.

      In our judgment, Peer Reviewer A’s prior relationship with JSG may
have prevented an impartial review of all category V applications and may
have prevented the BJA from complying with the requirements in the
Recovery Act to award grants in a fair manner. We recommend that the BJA
consider reevaluating the peer review process used for awarding future
funds to allow for a larger pool of eligible applicants. In addition, the BJA
should consider strengthening internal controls to identify relationships
between reviewers and applicants. The BJA should also consider any
possible remedies, or disciplinary action, that may be warranted as a result
of the prior relationship identified in our review.

Open and Competitive Award Process

      According to the OJP Grant Manager’s Manual, discretionary grants are
awarded on a competitive or noncompetitive basis and at the discretion of
the bureau or program office head. The Recovery Act Correctional Facilities
on Tribal Lands Program solicitation indicates that the grant would be
awarded on a competitive basis. During our review, we identified several
concerns with the competiveness of the award process.

      Officials at JSG have been involved with training and technical
assistance associated with the planning, design, and construction of
correctional facilities on tribal lands since 2001 through affiliated companies.
In 2001, officials from JSG were invited to form a joint venture, Justice
Planners International, to administer a noncompetitive cooperative
agreement with the Federal Bureau of Prison’s National Institute of




       26
           Justice Solutions Group was awarded a 2008 Non-Recovery Act Planning
Correctional Facilities on Tribal Lands Training and Technical Assistance Program to fund the
PACIFIC project. The OJP grant number for this award is 2008-IP-BX-K001, and the grant
period is from February 2008 to September 2010.


                                           - 14 -
Corrections and Correctional Program Office. 27 The goals and objectives of
this funding were to:

   •   Provide tribes with an understanding of the facility development
       process for new, renovated and/or expanded facilities;

   •   Provide appropriate technical assistance and introduce tribal planning
       team members to operational, programmatic and organizational
       concepts and processes that may be used during planning, design or
       construction of a facility to help the client plan a facility that will
       function as designed and in a manner that meets its mandates and
       mission and the needs of the tribe; and

   •   Assist tribes in making well-informed planning, design, and
       construction decisions by providing materials and information on "best
       practices" in facility development planning and design for new juvenile
       and adult detention and correctional facilities.

      In 2006, Justice Planners International was awarded a noncompetitive
grant by the BJA to continue the services provided under the 2001 Federal
Bureau of Prisons’ cooperative agreement. 28 In 2008, JSG was awarded a
competitive Non-Recovery Act Planning Correctional Facilities on Tribal Lands
Training and Technical Assistance award (2008 grant) to continue training
and technical assistance services. 29 The purpose of the 2008 grant was to
work collaboratively with the BJA and an advisory committee to develop
curricula and publications, provide technical assistance, and disseminate
information to tribal planning teams that reflect an understanding of the
unique attributes and challenges of tribal criminal justice systems. The
advisory committee proposed in JSG’s application materials for the 2008
grant is comprised of leadership from tribal government, tribal correctional
agencies, and representatives from JSG, BJA, BIA, National Institute of
Corrections, state government, and private foundations.

      JSG has received approximately $5.3 million in non-competitive
funding since 2001 as the exclusive training and technical assistance
provider for correctional facilities on tribal lands. This funding received by

       27
          A noncompetitive cooperative agreement is a cooperative agreement that is not
competitively awarded. According to OMB Circular A-102, federal agencies award
cooperative agreements instead of grants when “substantial involvement” is expected in
carrying out the activity contemplated in the agreement.
       28
            The OJP grant number for the grant is 2006-IP-BX-K001.
       29
            The OJP grant number for the grant is 2008-IP-BX-K001.


                                           - 15 -
JSG officials directly and through affiliated companies from various grants
and cooperative agreements related to tribal correctional training and
technical assistance over the past decade has allowed them to develop
professional relationships with tribal officials, tribal project managers, BIA,
National Institute of Corrections, and other federal agencies. It has also
provided JSG with the opportunity to develop a competency in working with
Native American representatives and communities, develop curricula and
modify training and technical assistance delivery to meet specific needs of
tribal communities, and develop a network of criminal justice professionals
with substantial experience in Indian Country, all of which were criterion for
priority consideration as listed in the solicitation under category V of the
Recovery Act Correctional Facilities on Tribal Lands Program.

       Additionally, as the current training and technical assistance provider
to the Correctional Facilities on Tribal Lands Program under its 2008 grant,
JSG would meet the solicitation criteria of being operationally ready within
90 days of the award. It appears that the priority consideration, as indicated
in the solicitation, was written specifically for JSG, and it would be very
difficult, if not impossible, for any other applicant of this program to meet
the criteria without the support the BJA has provided to JSG.

Conclusion

       Based on our review, we identified concerns over the competitive
nature of awards made by the BJA under category V of the Recovery Act
Correctional Facilities on Tribal Lands Program. Peer Reviewer A’s prior
relationship with JSG during the peer review process combined with the
priority consideration criteria in the solicitation potentially gave JSG an
unfair competitive advantage over other applicants. We believe that the BJA
should consider strengthening internal controls to reduce the risk of
appearances of conflicts of interest when selecting internal reviewers.
Consideration should also be given to any possible remedies or disciplinary
actions that may be warranted as a result of the prior relationship identified
in our review.




                                     - 16 -
                                                            APPENDIX I

            RECOVERY ACT CORRECTIONAL FACILITIES ON
                TRIBAL LANDS CATEGORY V AWARD
                                                              AMOUNT
  AWARD NUMBER      STATE            GRANTEE ORGANIZATION     AWARDED
2009-ST-B9-0101      NJ     Justice Solutions Group           $4,737,942
Source: OJP’s GMS




                                     - 17 -
                                                                          APPENDIX II

            FINAL PEER REVIEW SCORES REPORTED BY BJA
                                                                             FINAL PEER
  AWARD NUMBER      STATE      GRANTEE ORGANIZATION          CATEGORY       REVIEW SCORE
2009-G5978-NJ-ST     NJ     Justice Solutions Group          Category V         83.00
2009-G6019-CA-ST     CA     National Indian Justice Center   Category V         81.17
Source: OJP’s GMS




                                        - 18 -
                                                                           APPENDIX III

             PRIOR AWARDS TO JSG AND AFFILIATED COMPANIES
                      AWARD             AWARD         AWARD END    AWARDING    TYPE OF
  AWARD NUMBER        AMOUNT          START DATE        DATE        AGENCY     AWARD
Justice Planners International
                                                                                 Non-
02S07GIU2             $    546,315    11/15/2001      11/14/2002     NIC      competitive
                                                                                 Non-
03S07GIU2                 1,597,006    4/1/2003       3/31/2005      NIC      competitive
                                                                                 Non-
04S07GIU2                  438,781    12/15/2003      6/14/2005      NIC      competitive
                                                                                 Non-
2006-IP-BX-K001       2,369,838       10/1/2005       9/30/2010      BJA      competitive
Justice Solutions Group
2008-IP-BX-K001      $ 999,871         2/1/2008       9/30/2010      BJA      Competitive
2009-IP-BX-K002         999,794        8/1/2009       7/31/2011      BJA      Competitive
                                                                                 Non-
2009-S4-BX-K146          369,394       9/1/2009       8/31/2011      BJA      competitive
TOTAL                $7,320,999
Source: OJP’s GMS and the BOP




                                             - 19 -
                                                                                             APPENDIX IV

OJP RESPONSE TO OIG TECHNICAL ASSISTANCE REPORT

                                                        u.s. Department or Justice
                                                        Office of Justice Programs

                                                        Office 0/ Ihe Assiston/ AI/omey General




'JAN 14 201 1

MEMORANDUM TO:                 Glenn A. Fine
                               lospector General
                               United States Department of Justice

THROUGH:                       Raymond J. Bcaudet
                               Assistant Inspector Gene ral for Audit
                               Office of the Inspector General
                               United States Department of Justice

 FROM:                         Laurie O. Robinson             ~
                               Assistant Anomey General      <.::s...
SUB1ECT:                       Response to the Office of the lnspeClor General's Draft Audit
                               Report, Review o/the Award Process/or the Bureau ofJustice
                               Assistonce Recovery Act Grallf Program /or Correctional Facilities
                               011 Tribal Lands, Category V


        The Office of Justice Programs (OlP) appreciates the opportunity to rev iew and respond
to the Office of the Inspector General's (OIG's) draft audit report, entitled Review o/the Award
Process/or Ihe Bureau ofJustice AssiSlance RecO~'eryAct Grant Program/or Correctional
Facililies on Tribal Lands, Category V, transmitted on December 10. 2010. Please find below
Ol P's comments related to several issues noted in the draft audi t report pertaining to BJA 's
award decision.

         Although no fonnal recommendations were included in the draft !ludit report, the OIG
Sl3ted that: I) Ol P should ensure that the logistical support COn1r'Jctor satisfactorily implements
the quality control review of manually entered data; 2) Pecr Reviewer A's prior relationship with
the lustiee Solutions Group (15G) during the peer review process combined with the priority
eonsiderntion criteria in the solicitation potentially gave ]SG an unfair comp.:titive advantage
over other applicants; 3) BJA should consider reevaluating the pee: review process used for
awarding future funds to allow for a larger pool of eligible applicants; 4) BJA should consider
strengthening internal controls to reduce the risk of appcarunces of conflicts o r interest when
selecti ng internal reviewers; and 5) BJA should consider possible re1l1edies, or disciplinary action,
that may be warranted as a result of the prior relationship identified in their review. OJP's
response to these issues is organized by the section headers included in the draft audit report.




                                               - 20 -
Ptt r Review Process - I>eer Review Score Verification

        The 0[0 found that one of the two final assessment scores for the Category V
applications had been incorrectly reponed to BJA by the logistical support provider, due to an
input error. Although in this case the error did not affect the overall ranking of applications, OlP
agrets with the DIG that OJP must ensure that the logistical support contractor satisfactorily
implement quality control procedures to prevent such data errors. Accordingly, in August 2010,
OJ P implemented a new process for ensuring the accuracy and reliability of peer review dala.
Specifically, rather than manually entering data, peer reviewers' final scores are directly
uploaded into the contractor 's pecr review management system from OlP's Grants Management
System (GMS). Reports from the two systems are then cross-checkC<! for data accuracy. Any
discrepancies arc then resolved by OJP and contractor staff.

UJA 's Award Decision - Internal Peer Reviewer 's Prior Relntionship with JSG

        In its draft report, the 010 states that it appeared that Peer Reviewer A had a
collaborative relationship with lSO staff prior to the rev iew of th eir app lication and did nO!
disclose this relationship during the peer review process. [n the DIG's judgment, Peer Reviewer
A's prior relationship with JSG prevented an impartial review of applications and may have
prevented B1A from complying with Recovery Ac t requiremen ts to award grants in a fair
manner. The Office of Justice Programs offers the following responses to provide funher
clarification and context to these issues.

         First, BM belie\'es that Peer Reviewer A was able to providc an impartial and objective
review of the Category V app lications, including the one submitted by ISO. Peer Reviewer A
d id not have a direct personal or financial relationship with JSG, and was not engaged in the
recommend lit ion and selection process of this award. It is BJA's practice is to ensure staff
involved as peer reviewers do not participate in the award decision process.

       Additionally, although the DIG draft audit report included the final peer review scores for
the two applicants, J SG and the National Indian Justice Center (NUC). it did not include all of
the peer rev iew 500re infonnation thllt was provided to the 0 1 by DJA. Specifically, Peer
                                                                0
Reviewer A 's ratin g of JSO only differed from Peer Reviewers B and C, respectively, by two
and four points. Further, Peer Reviewer A deducted 15 points from the J SG application and
noted weaknesses in every review criterion. Moreover, Peer Reviewer A's score for a competing
applicant _ the N[JC - waS higher than the score given to that applicant by another BIA peer
reviewer. As such, BJA believes that Peer Reviewer A acted in a fair and impanial malUler
when evaluating the Category V applications.

        It is BJA's practice to use iTllemal subject mattc r experts (Bl A policy advisors and senior
policy advisors) to serve as internal peer reviewers on grant app lications for which they have
expertise. These internal reviewers are often the b<.:st qualified revie .....-crs and. thus, BJA
frequen tly uses them to evaluate applications for national-level training and technical assistance
(TrA) projects. NationallevellTA projects are a high priority for RJA, and are a key to OM's

                                                  2




                                               - 21 -
success in building capacity among state, local, and tribal jurisdictions. As such. BJA staff
members are very much a\Yare of BJA 's mission and focus o n ITA projects, and have better
insighl into which projects will best address Ihe needs of the field and BJA' s priori ties.
Add itionAlly, there aTe limited numbers of external subject matter experts with nati onal level
expertise and perspective, and these experts may want to appl y to provide the services sought
under the solicitation, or panner with an organi zation that is applying (which would preclude
them from serving as peer reviewers).

        Peer Reviewer A had subject matter expertise on tribal matters, and oversaw several high
profile tribal projects for BlA. In managing other tribal related projects, on topics sueh as
substance abuse and tribal courts, Peer Reviewer A worked with numerous tribal grantees and
national-level triballT A providers, inCluding JSG, to ensure that the projec ts were coordinated
in a way to best address the needs of tribal communities. 1 this case, having a professional
                                                             11
relationship with the proposal's author(s), project staff, or the organi7..ation submitting the
proposal, did not preclude Peer Revi ewer A (or any BJA staff member) from pro viding an
impartial and objective review.

        Additionally, the OIG notes that Peer Reviewer A was the main point-of-contact for the
Category V solicitation. However, BlA listed three names as points-o f-contact in the Category V
solicitation, none of which is identified as the main point-of-contact. Anot her DlA-subject
maller expert, who was noted as one of the points-of-contllct in the Category V solicitation,
served as the solicitation manager, facilitated the consensus caB anong all ttrn:e peer reviewers,
and authored the funding recommendation memorandum, which recommended JSG for the grant
award and was scnt to OlP's Assistant Attorne y General for approval. To e nsure that intemal
controls are in place to prevent conflicts o f interest, it is BJA ' s policy that all ftmding
recommendation memoranda adhere to the guidance provided by OJP's Assistant Attorney
Ge neral. and that such memoranda are carefully reviewed and approved by the following Bl A
officials: the Associate Deputy Dire<:tQr, the Acting Deputy Director , and the Acting Director.

Open aDd Compt'ritivt' Aw ard P r ocess

         The OIG notes that Ihe Category V solicitation was written s~c ificall y for lSG , and that
it would be very difficult, if not impossible, for any other appJican: of this program to meet the
criteria without the support llJA provided to l SG. The Category V solicitation eligibility
requirements were broad so as to encourage applications from tribal and non-tribal for-profit
organizations, non-profit organizations, faith-based and communi ty organi zations, institutions of
higher learning, and consortiums with demonstrated national level e.l(perience in workin g with
tribal representatives to plan. renovate, and construct correctional facilities that serve local and
regional needs. In addition to JSG and NlJC, BlA believes that several other national level
organizations (i ncluding Fox Valley Technical College and the Native American Rights Fund)
were eligible to apply and could have met the criteria outlined in the solicitation. Further, the
appl icntion su bmitted by NlJC was very competitive, receiving a peer review score which was
onl y 1.83 points lower than JSG's.



                                                 J




                                              - 22 -
        BJA believes that its policy and senior policy advisors, who have professional
relationships with applicants, arc capable of providing an iOlpanial, objective, and independent
peer review of such applications. Nonetheless, in the future, BJA plans to closely examine the
composition of each peer review panel to ensure thaI there is no potential for conflict of interest.
Additionally, OlP will consider strengthening controls to further reduce any appearances of
conflicts of interest related to the selection of internal peer reviewers.

       Again, thank you for the opportunity to review and comment on the draft audit report. If
you havc any questions regarding this response, please contact Maureen A. Henncberg, Director,
Office of Audit, Assessmcnt, and Management, on (202) 616-3282.

cc:     Beth McGarry
        Dcputy Assistant Attorney General
         for Operations and Management

       James H. Burch, II
       Acting Director
       Bureau of Justice Assistance

       Leigh Benda
       Chief Financial Officer

       Maureen A. HelUleberg
       Director
       Office of Audit, Assessment, and Management

        JelTery A. Haley
        Deputy OmlOr, Audit and Review Division
        Office of Audit, Assessment, and Management

        Richard A. Theis
        Assistant Director, Audit Liaison Group
        Justice Management Division




                                                  4




                                               - 23 -
                                                                APPENDIX V

              OFFICE OF THE INSPECTOR GENERAL
    ANALYSIS OF THE OFFICE OF JUSTICE PROGRAMS RESPONSE

       The OIG provided a draft of this report to OJP. OJP’s response is
incorporated in Appendix IV of this final report. Although our report
contained no formal recommendations, our review identified several areas of
concern related to the award process for the Recovery Act Correctional
Facilities on Tribal Lands Discretionary Grant Program, Category V. The
following provides the OIG analysis of OJP’s response.

Peer Review Score Verification

      In response to our report, OJP concurred with our assessment of the
inaccurate reporting of final peer review scores by the logistical support
contractor, and agreed that it must ensure that the logistical support
contractor satisfactorily implement quality control procedures to prevent
inaccurate reporting of final peer review scores. OJP also stated that as of
August 2010 it has implemented a new process for ensuring the accuracy
and reliability of peer review data.

Internal Peer Reviewer’s Prior Relationship with JSG

      We also present in the report a concern that Peer Reviewer A did not
disclose a prior collaborative relationship with JSG before peer reviewing
JSG’s application as required by OJP peer review procedures. While OJP did
not disagree with our conclusion that Peer Reviewer A should have disclosed
the prior relationship, OJP provided comments concerning the effect of this
discrepancy.

       OJP stated in its response that Peer Reviewer A’s prior professional
relationship did not preclude Peer Reviewer A (or any BJA staff member)
from providing an impartial and objective review. Additionally, OJP stated
that the BJA believes that its policy and senior policy advisors, who may
have professional relationships with applicants, are capable of providing an
impartial, objective, and independent peer review of such applications.
However, we believe that regardless of the perceived ability of an individual
to remain objective, Peer Reviewer A should have disclosed the prior
professional relationship with JSG at the time of the review so that it could
be evaluated as to whether it presented a potential conflict of interest. OJP
did not disagree with this point in its response.



                                    - 24 -
     Below we discuss in more detail OJP’s response related to Peer
Reviewer A’s failure to disclose the prior relationship with JSG.

Peer Review Scores

      While we do not provide an opinion on the validity of peer reviewers’
assessments of the applications, in support of our objectives we conducted a
limited evaluation of the objectivity of peer reviewers. Our report details our
concerns about Peer Reviewer A’s prior relationship with JSG and its affect
on OJP’s ability to ensure an impartial review of all category V applications.
The focus of our concern was that Peer Reviewer A’s prior relationship with
JSG may have prevented an impartial review of all category V applications
and thus may have prevented the BJA from complying with the requirements
in the Recovery Act to award grants in a fair manner. We made a minor
modification to the report to clarify that although we identified several
concerns with Peer Reviewer A’s objectivity in the review of JSG’s
application, we were not informed by Peer Reviewer A that these concerns
had undoubtedly prevented an impartial review. Therefore, we clarified the
report to reflect the fact that Peer Reviewer A’s prior relationship may have
prevented an objective review.

      In its response to our draft report, OJP noted that the OIG’s analysis
did not include all of the peer review score information provided by the BJA.
Because OJP considers specific scoring and applicant information to be
confidential, we did not detail this specific information in this report even
though it was part of the information that we reviewed.

       OJP also stated in its response that Peer Reviewer A's overall rating of
JSG only differed from Peer Reviewers B and C, respectively, by two and
four points. While we agree with this analysis, Peer Reviewer A provided
JSG with a higher score for one key peer review criterion, “capabilities and
competencies”, than the other peer reviewers. Alternatively, Peer Reviewer
A rated NIJC’s application significantly lower than JSG in the same criterion.
According to the selection criteria stated in the solicitation, this particular
criterion category relates to the capacity to complete each of the potential
tasks or projects outlined. In addition, the capabilities and competencies
category is the highest weighted category among the five criterion
categories. 30 It could reasonably be expected that Peer Reviewer A’s prior
professional relationship with JSG resulted in an increased knowledge of or
respect for JSG’s capacity as a result of having previously worked with the


       30
          As shown in Table 1 on page 9 of our report, the “capabilities and competencies”
category is weighted 35 percent while the other categories are each weighted either 15 or
20 percent.

                                          - 25 -
applicant when compared to the reviewer’s knowledge of or respect for
NIJC’s capacity.

       Further, in its response, OJP states that Peer Reviewer A deducted 15
points from JSG’s application and noted weaknesses in every review
criterion. However, OJP’s response fails to mention that Peer Reviewer A
also noted weaknesses in every review criterion for NIJC, but deducted more
points from NIJC’s application. Therefore, the overall score that Peer
Reviewer A assigned to JSG’s application was several points higher than
NIJC’s application. It is important to note that the overall score that Peer
Reviewer A assigned to JSG was the highest among the peer reviewers.
Taking into account these positive scorings that Peer Reviewer A gave JSG,
we reject OJP’s implication that the fact that Peer Reviewer A also at times
deducted points or noted weaknesses for JSG provides evidence of
impartiality.

      The conditions previously described, taken in consideration with Peer
Reviewer A’s prior relationship with JSG, casts doubt on OJP’s contention
that Category V applicants were reviewed in a fair and impartial manner.
We conclude that Peer Reviewer A’s prior relationship may have prevented
an impartial review of all category V applications and may have prevented
the BJA from complying with the requirements in the Recovery Act to award
grants in a fair manner.

Funding Recommendation Memorandum

      OJP stated that Peer Reviewer A did not have a direct personal or
financial relationship with JSG and was not engaged in the recommendation
and selection process of the award. OJP also stated that internal controls
are in place to prevent conflicts of interest in award selection; that all
funding recommendation memoranda adhere to the guidance provided by
OJP's Assistant Attorney General; and that such memoranda are carefully
reviewed and approved by the Associate Deputy Director, the Acting Deputy
Director, and the Acting Director. Guidance provided by OJP’s Assistant
Attorney General dated March 10, 2009, identifies specific criteria that final
award recommendation memoranda must include. Included in those
requirements are that every application scoring higher than the lowest-
scoring application to be funded must have an explanation of why it was not
funded. Because JSG’s application was scored higher than NIJC’s
application, an explanation for NIJC’s denial was not required. However, the
recommendation memoranda cited JSG’s high peer review score among the
reasons for providing JSG with the award. Therefore, in our opinion, the
peer review scores clearly affected the award selection process.


                                    - 26 -
      Despite the fact that the BJA disagrees with us on the potential effects
of Peer Reviewer A’s prior relationship with JSG, they plan to closely
examine the composition of each peer review panel to ensure that in the
future, there is no similar potential for a conflict of interest. Additionally,
OJP will consider strengthening controls to further reduce any appearances
of conflicts of interest related to the selection of internal peer reviewers. We
further encourage these efforts.

Open and Competitive Award Process

        In response to our discussion about the need to ensure an open and
competitive award process for the category V solicitation, OJP
misrepresented a statement in our report. Instead of stating that the
solicitation was written specifically for JSG, we stated that the priority
consideration was written specifically for JSG. We do not dispute OJP’s
assertion that several other national level organizations were eligible to
apply. However, in our opinion, the priority consideration listed in the
solicitation may have served to limit the opportunity for any organization
other than JSG to obtain funding under category V. For example, the BJA
states that priority consideration would be given to applicants that
demonstrate a history of working effectively with tribal officials, tribal project
managers, the BIA, the National Institute of Corrections, and other federal
agencies. As previously described in the report, JSG began work through an
affiliated company with tribal corrections through a 2001 cooperative
agreement with the Federal Bureau of Prison’s National Institute of
Corrections and OJP’s Corrections Program Office, was provided funding by
the BJA to develop an Advisory Committee comprised of leadership from
tribal government, tribal correctional agencies, and representatives from
JSG, BJA, BIA, the National Institute of Corrections, state government, and
private foundations, and has been the exclusive training and technical
assistance provider for correctional facilities on tribal lands since 2001. As a
result, we continue to encourage OJP to consider strengthening internal
controls to reduce the risk of the appearance of favoritism towards a
particular grantee.

       Finally, we noted in the draft report provided to OJP that Peer
Reviewer A served as the main point-of-contact for the solicitation. OJP
stated in its response that the “BJA listed three names as points-of-contact
in the category V solicitation, none of which is identified as the main point-
of-contact.” Upon further review of the solicitation, we acknowledge that the
solicitation listed three individuals, none of which were listed as the main
point-of-contact. As a result, we revised the final report.



                                      - 27 -
